2311 Douglas Street
Omaha, Nebraska 68102-1214

.COCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Leg a 1 Briefs

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.
ERIC S. CLARK,
Petitioner,
v.
CITY OF WILLIAMSBURG, KANSAS,
. Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5367 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of March, 2021,
I am duly authorized under the laws of the State of Nebraska to administer oaths.

40748

A GENERAL NOTARY-State of taferaska
Ml
RENEE J. GOSS
■gffiqgjjgi My Comm. Exp. Septembers, 2023
Notary Public

v

Affiant

